 Federal Communications
        Commission




  Office of the Inspector General
Semiannual Report to Congress
October 1, 2005 – March 31, 2006

              Kent R. Nilsson
              Acting Inspector General
              Table of Contents
Introduction………………………………………………………………………………………………. 2



Universal Service Fund (USF)…………………………………………………………………………..3



Audits……………………………………………………………………………………………………….7



Management…………………………………………………………………………………………...…21



Investigations…………………………………………………………………………………………….22



Legislation………………………………………………………………………………………………..24



IG Hotline………………………………………………………………………………………………….25



Specific Reporting Requirements of the Inspector General Act………………………………..27



OIG Reports With Questioned Costs………………………………………………………………...29



OIG Reports With Recommendations That Funds Be Put To Better Use………………………30




                               1
                               Introduction
The Federal Communications Commission (FCC) is an independent regulatory agency,
which was delegated authority by Congress under the Communications Act of 1934, as
amended, in principal part, by the Telecommunications Act of 1996 as well as antecedent
legislation (collectively, the "Act"). The FCC is charged with the regulation of interstate and
international communication by radio, television, wire, satellite and cable. The FCC’s
jurisdiction covers the fifty states, the District of Columbia and all U.S. territories. Under
Section 1 of the Communications Act, the FCC was created for the purpose of regulating
interstate and foreign commerce so as to make available, so far as possible, a rapid,
efficient, nationwide and worldwide wire and radio communication service with adequate
facilities at reasonable charges to all of the people in the United States and its Territories. .
The FCC performs four major functions in addressing this responsibility.

• Spectrum allocation
• Creating rules to promote fair competition and protect consumers where required by market
  conditions
• Authorization, and continuation, of service
• Enforcement of the Communications Act and rules and regulations that implement the Act

The FCC is composed of a Chairman and four Commissioners, who are appointed by the
President and confirmed by the Senate. Kevin J. Martin was designated Chairman on March
18, 2005. Jonathan S. Adelstein, Michael J. Copps and Deborah Taylor Tate serve as
Commissioners. Most of the FCC's employees are located in Washington, D.C. at the Portals
II building, which is located at 445 12th St., S.W., Washington, D.C. 20554 FCC field offices
and resident agents are located throughout the United States.

The Office of Inspector General (OIG) is dedicated to assisting the Commission as it
continues to improve its effectiveness and efficiency. The former Inspector General, H.
Walker Feaster III, retired on January 3, 2006. The Acting Inspector General (IG), Kent R.
Nilsson was appointed on January 6, 2006, and reports directly to the Chairman. The OIG
staff consists of twelve professionals and a student intern. Principal assistants to the IG are:
Jon R. Stover, Acting Deputy Inspector General; David L. Hunt, Assistant Inspector General
(AIG) for Investigations/General Counsel; Steven Rickrode, AIG for Audits; William A. Hill, Jr.,
AIG for Universal Service Fund Oversight; Thomas Cline, AIG for Policy and Planning, and
Thomas Holleran; AIG for Management.

This semiannual report includes the major accomplishments and activities of the OIG during
the period from October 1, 2005 through March 31, 2006.




                                           2
         Universal Service Fund (USF)
       Independent Oversight of the Universal Service Fund (USF)

       Beginning with the Inspector General's semiannual report for the period ending March 31,
       2002, the Inspector General ("IG") has included a section highlighting the office's efforts to
       implement effective, independent oversight of the Universal Service Fund (USF)1. Due to its
       materiality and our assessment of its audit risk, the office has focused much of its attention on
       the USF mechanism for funding telecommunications and information services for schools and
       libraries, which is also known as the “Schools and Libraries Program” or the “E-rate” program.

       In this report, we provide an update on our oversight activity during the most recent six month
       reporting period. Specifically, we provide an update on OIG oversight activities; provide an
       update on audits being conducted by other Federal Offices of Inspector General; and
       summarize other significant investigative activity.

       Update on OIG Oversight Activities

       As discussed in previous semiannual reports, the primary obstacle to an effective,
       independent oversight program has been, and continues to be, inadequate audit and
       investigative resources so that OIG can conduct its own audits and provide adequate audit
       support to investigations. This continues to be true despite the efforts of Chairman Martin to
       provide modern, up-to-date equipment and support, and his request to the Congress for
       additional funding to support the work of this office. Inadequate investigative and internal
       audit resources have prevented the OIG from fully completing the body of work it believes
       is essential to `assessing fraud, waste, and abuse. In addition, inadequate resources have
       made it difficult for the OIG to provide appropriate support to federal law enforcement in
       investigations of fraudulent activity in the E-rate program. In the last semiannual report, the IG
       was able to state that progress had been achieved with the addition of two (2) additional audit
       staff to the USF audit and investigations team. And, although the IG had been advised by
       then-Chairman Powell’s office that the OIG would receive two (2) additional staff for USF
       oversight, the office did not receive any new staff resources. Since our last discussion with
       the former Chairman Powell, the President designated Kevin J. Martin as the new Chairman
       of the Commission. Beginning with the Commission’s FY 2007 budget submission, Chairman
       Martin requested that the OIG be given twelve (12) additional FTEs and up to $20,480,000
       funded through USF program receipts. That request is currently pending before Congress.
       Until that request for new staff resources is addressed, we continue our oversight
       responsibilities with the limited resources on hand.

       In this office's last semiannual report to the Congress, we reported that we had been working with
       USAC since the summer of 2004 to establish a three-way contract under which the OIG and USAC
       could obtain audit resources to conduct USF audits to fulfill the statutory requirements required of the
       Commission as mandated by the Improper Payments Improvement Act of 2002 (IPIA). The FCC's IG
       and USAC completed the contractor selection process and a



1
    The USF is generated through contributions from providers of interstate telecommunications,
    including local and long distance phone companies, wireless and paging companies, and pay phone
    providers. The Universal Service Administrative Company (USAC) administers the USF under
    regulations promulgated by the Federal Communications Commission (FCC).



                                                  3
  Universal Service Fund (USF)
public accounting firm was selected to conduct USF audits at the end March, 2005. In April
2005, the USAC Board of Director’s approved the vendor selections recommended by the
FCC's IG and the USAC review team. In August 2005, the IG was advised that the
Chairman had approved the three-way plan. The Commission’s General Counsel issued a
memorandum, dated August 19, 2005, in which he identified problems with the vendor
selection process. After discussing these issues with management, the IG decided to
support recompeting the procurement to ensure that USAC obtains an independent audit firm
(working under the oversight and with input from the OIG) based on competitive procurement
principles modeled on the Federal Acquisition Regulations. Currently, USAC has under
contract a statistician from George Mason University, who is developing an optimal sampling
design for each of the four universal service programs as well as a sampling design to
determine whether contributors are being properly charged. As these sampling
methodologies are being formulated, the OIG is working closely with USAC to develop
multiple requests for proposal (RFPs) so that each audit firm will be able to bid upon clearly
defined auditing tasks. We expect to release all RFPs during the third quarter of FY 2006.

While the competitive bidding process takes shape, the OIG and USAC continue to exercise
oversight roles of the schools and libraries program to prevent fraud, waste and abuse. In
this context, the acting IG encouraged USAC to exercise KPMG LLP’s final option for
services in regard to another round of schools and libraries audits. This body of work will
continue to be developed while KPMG LLP is finishing its last round of one hundred (100)
audits. To date KPMG has issued eighty-five (85) reports in draft and thirty-nine (39) of
these drafts have undergone the OIG’s quality assurance review and have been presented to
the appropriate parties for responses.

In addition to all the USF work efforts underway, the Commission is considering making
changes in the roles and responsibilities of certain Bureaus and Offices, including the OIG.
Certain functions have been reorganized to meet the Commission’s on-going goals of making
the administration of the USF more efficient and effective. These changes may have a
significant impact on the roles and responsibilities of the OIG regarding USF oversight. In
addition, with the retirement of H. Walker Feaster III, the former IG, the Chairman has
appointed a new Acting IG and created a new acting Deputy IG position. The new Acting IG
has made several key appointments including a new Assistant IG for Investigations and a new
Assistant IG for USF Oversight. Chairman Martin has also provided communications
equipment as well as computer hardware and software to support the field work of the OIG's
auditors, investigators, and attorneys and has increased the training budget and travel funding
in the office of the acting Inspector General.




                                         4
  Universal Service Fund (USF)
Audits Conducted by Other Federal Offices of Inspector General

On January 29, 2003, the IG executed a Memorandum of Understanding (MOU) with the
Department of the Interior (DOI) OIG. This MOU was a three-way agreement among the
Commission, DOI OIG, and USAC for audits of schools and libraries funded by the Bureau of
Indian Affairs and other universal service support beneficiaries under the audit cognizance of
DOI OIG. Under the agreement, auditors from DOI OIG perform audits for USAC and the
FCC OIG. In addition to audits of schools and libraries, the agreement allows for the DOI OIG
to consider requests for investigative support on a case-by-case basis. DOI OIG has recently
submitted two audits to the OIG. One was an audit of the Bureau of Indian Affairs and the
other was an audit of the Virgin Islands Department of Education. These audits have been
completed and provided to the OIG staff. The OIG is currently reviewing these audits and
performing the necessary quality assurance review. We expect these audits to be issued in
FY 2006.

We have also established a working relationship with the Office of Inspector General at the
Education Department (Education OIG). In January 2004, Education OIG presented a plan
for an audit of telecommunication services at the New York City Department of Education
(NYCDOE). Because of the significant amount of E-rate funding for telecommunication
services at NYCDOE, Education OIG has proposed that they be reimbursed for this audit
under a three-way MOU similar to the existing MOU with DOI OIG. In April 2004, the
Universal Service Board of Directors approved the MOU. In June 2004, the MOU was signed
and the audit was initiated. The Education OIG held an exit conference with the NYCDOE on
September 29, 2005 and forwarded its audit findings to us during February, 2006. We
anticipate issuing a final report in FY 2006.

Support to Investigations

In addition to the audit component of our oversight program, we have provided, and continue
to provide, audit support to a number of investigations of E-rate recipients and service
providers. To implement the investigative component of our plan, we developed a working
relationship with the Antitrust Division of the Department of Justice (DOJ). The Antitrust
Division, in turn, has established a task force to conduct USF investigations that is comprised
of attorneys in each of the Antitrust Division’s seven field offices and the National Criminal
Office. As of the end of this reporting period, we are supporting twenty-four (24) investigations
and monitoring an additional eleven (11) investigations.

As we discussed in the section that updated OIG oversight activities, the OIG has been
working with USAC since the summer of 2004 to establish a three-way contract under which
the OIG and USAC can obtain audit resources to conduct USF audits. In addition to providing
resources to conduct audits, the three-way agreement also contemplated providing support to
criminal investigations of E-rate and USF fraud. As a result of delays that have been
encountered in establishing the three-way agreement, the FCC OIG has struggled in its efforts
to provide adequate investigative support to federal law enforcement.




                                          5
    Universal Service Fund (USF)
Significant accomplishments in investigative support include indictments, convictions, fines
and negotiated settlements. Following are major accomplishments during the reporting period
for which the OIG provided support:

•   In October 2005, the United States Attorney’s Office for the Northern District of California
    announced that Evertec Inc. agreed to pay $4.8 million to settle allegations that the
    corporation (while known as GM Group, Inc.) violated the civil False Claims Act by
    claiming funds under the FCC’s E-rate program for goods and services that were ineligible
    for E-rate funding. The company also agreed to cooperate with the United States in any
    investigation related to its participation in the E-rate program and to implement an ethics
    and compliance program.

•   In January 2006, a federal grand jury in the United States District Court for the Eastern
    District of California indicted two individuals, Gregory Paul Styles and Marvin Mitchell
    Freeman, on twenty-two (22) violations for the purpose of defrauding the E-rate program
    in the Chowchilla Elementary School District. The defendants are charged with:

            o   Conspiracy to defraud
            o   Mail fraud and aiding and abetting (two counts)
            o   Honest services mail fraud and aiding and abetting (two counts)
            o   Conspiracy to launder money
            o   Money laundering and aiding and abetting (15 counts under various sections of 18
                U.S.C. § 1956)

Conclusion

Our involvement in E-rate beneficiary audits and investigations has not lessened our concerns
about fraud, waste, and abuse in Universal Service Fund programs. We remain committed to
meeting our statutory responsibility to provide effective, independent oversight of the Universal
Service Fund program. We believe we are making significant progress toward achieving our
goal of designing, and eventually implementing, an effective oversight program. However, as
noted above, a lack of adequate resources continues to impede our ability to provide effective,
independent oversight of the E-rate program and the other programs that are financed through
the Universal Service Fund.




                                          6
                                          Audits
I. Financial statement audits provide assurance about whether an agency’s financial
   statements present fairly the financial position, results and costs of operations. In
   addition the financial statement audit reports on the internal controls over financial
   reporting, and compliance with certain applicable laws and regulations.

1. Audit of the Federal Communications Commission Fiscal Year 2005 Consolidated
   Financial Statements (Report No. 05-AUD-04-03 issued on November 15, 2005)

   As required by the Accountability of Tax Dollars Act of 2002, the FCC prepared consolidated
   financial statements in accordance with Office of Management and Budget (OMB) Bulletin No.
   01-09, Form and Content of Agency Financial Statements, amended, and presented them for
   audit. The Chief Financial Officers Act of 1990 (CFO Act), amended, requires the FCC OIG,
   or an independent external auditor as determined by the Inspector General, to audit agency
   financial statements in accordance with Government Auditing Standards issued by the
   Comptroller General of the United States. Under a contract monitored by the OIG, Clifton
   Gunderson, LLP (hereinafter, "CG"), an independent certified public accounting firm,
   performed an audit of the FCC’s FY 2005 consolidated financial statements in accordance
   with required standards, including OMB Bulletin No. 01-02, Audit Requirements for Federal
   Financial Statement, amended and applicable sections of the U.S. Government Accountability
   Office (GAO)/President’s Council on Integrity & Efficiency (PCIE) Financial Audit Manual.

   The results of the audit are contained in three independent auditor’s reports, prepared by CG
   and dated November 1, 2005, the last day of CG's field work. The highlights of each report
   have been summarized below. In general, the Commission's management agreed with the
   findings and supported the recommendations that were contained in those reports.

   Independent Auditor’s Report – Opinion on the Financial Statements

   In its report dated November 1, 2005, CG was not able to express an opinion on FCC’s
   financial statements as of September 30, 2005. CG stated that it was not able to apply all
   necessary auditing procedures to complete an audit in accordance with applicable standards
   and OMB Bulletin No. 01-02, therefore, the scope of work was not sufficient to enable them to
   express an opinion.

   Independent Auditor’s Report on Internal Control over Financial Reporting

   In performing its testing of internal controls necessary to achieve the objectives stated in OMB
   Bulletin No. 01-02, CG identified significant deficiencies in the design and operation of the
   FCC’s internal controls that, in its judgment, could adversely affect the FCC’s ability to record,
   process, summarize, and report financial data accurately. These deficiencies were
   categorized as material weaknesses and, accordingly, were treated as reportable conditions
   according to the definitions that are used by the American Institute of Certified Public
   Accountants.




                                             7
                                      Audits
Material weaknesses occur where the design or operation of one or more of the internal
control components does not reduce, to a relatively low level, the risk that material
misstatements in the financial statements could occur and not be detected within a timely
period by the employees in the normal course of performing their assigned functions. CG
identified material weaknesses in the areas of:

•   Control Environment Changes
•   Component Entities’ Financial Reporting Controls
•   Auction Transactions
•   FCC Contingency Plans

CG also identified several reportable conditions that are not considered to be material
weaknesses, which include:

•   Financial Reporting
•   Cost Accounting
•   Reconciliation of Intragovernmental Transaction Balances
•   Payroll and Personnel Activities
•   Debt Collection Improvement Act
•   Electronic Data Processing Controls
•   Federal Managers’ Financial Integrity Act of 1982 Compliance and Reporting

Independent Auditor’s Report on Compliance with Laws and Other Matters

The FCC's management is responsible for complying with laws and regulations applicable to
the agency. To ascertain whether the FCC’s financial statements are free of material
misstatements, CG performed tests of compliance with certain provisions of federal laws and
regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts and other matters specified in OMB Bulletin No.
01-02 (which includes the requirements referred to in the Federal Financial Management
Improvement Act of 1996). CG limited its tests of compliance to those provisions and did not
test compliance with all laws and regulations applicable to FCC.

CG's tests disclosed instances of noncompliance with specific laws and regulations required
to be reported under Government Auditing Standards and OMB Bulletin No. 01-02 as follows:

•   Chief Financial Officers Act of 1990
•   Antideficiency Act
•   OMB Circular No. A-129, Polices for Federal Credit Programs and Non-Tax Receivables
•   Debt Collection Improvement Act of 1996
•   Federal Financial Management Improvement Act of 1996




                                         8
                                         Audits
2. Report on the Federal Communications Commission Fiscal Year 2005 Special-Purpose
   Financial Statements (Audit Report No. 045-AUD-04-06 issued on November 17, 2005)

   The FCC prepares special-purpose financial statements to assist in the preparation and audit
   of the Financial Report of the United States (FR) using the Governmentwide Financial
   Reports System (GFRS) and the Federal Agencies’ Centralized Trial-Balance System
   (FACTS I). These statements, which are required by the U.S. Department of the Treasury
   Treasury Financial Manual (TFM), Volume I, Part 2, Chapter 4700, are not intended to be a
   complete presentation of the FCC’s financial statements.

   As required by TFM, 4705.55 - Audit Requirements for the Closing Package, the OIG
   obtained an audit of these special-purpose financial statements in accordance with
   Government Auditing Standards issued by the Comptroller General of the United States under
   a contract monitored by the OIG. Clifton Gunderson, LLP ("CG") performed the audit of
   related FY 2005 special-purpose financial statements in conjunction with the FCC’s FY 2005
   general purpose financial statement audit, (referred to above as the audit of FCC’s
   consolidated financial statements.)

   Because CG was not able to apply all necessary auditing procedures to audit the general
   purpose financial statements in accordance with auditing standards and OMB Bulletin No. 01-
   02, Audit Requirements for Federal Financial Statements. As a consequence, CG issued a
   disclaimer of opinion on the reclassified statements as of, and for, the year ended September
   30, 2005. The special purpose financial statements and accompanying notes as of, and for,
   the year ended September 30, 2004 were also audited and obtained an unqualified opinion on
   the reclassified balance sheet, and related reclassified statements of net cost and changes in
   net position. One note of the Financial Report Notes and Detail Report received a qualified
   opinion because the accuracy and completeness of undelivered orders could not be
   determined.

   After performing the internal control testing necessary to achieve compliance with the
   objectives contained in Chapter 4700 of the TFM, CG found no material weaknesses over the
   financial reporting process for the special-purpose financial statements. In addition, Clifton
   Gunderson’s tests of compliance with TFM Chapter 4700 requirements disclosed no material
   instances of noncompliance that were required to be reported under Government Auditing
   Standards or under OMB Bulletin No. 01-02. Commission management generally agreed with
   the results of the audit.




                                            9
                                         Audits
3. Report on the Federal Communications Commission Fiscal Year 2005 Agreed-Upon
   Procedures on Federal Intragovernmental Activity and Balances (Report No. 05-AUD-
   04-07, issued on December 2, 2005)

   In accordance with Treasury Financial Manual (TFM) 4705.75, IG Agreed-Upon Procedures
   for Federal Intragovernmental Activity and Balances, OIG obtained an attestation examination
   using the agreed-upon procedures for the purpose of assisting the Department of the
   Treasury’s Financial Management Service in the preparation of, and the GAO in the audit of,
   the consolidated financial statements of the U. S. Government as of, and for the year ended,
   September 30, 2005. Under a contract monitored by the OIG, Clifton Gunderson, LLP (CG),
   an independent certified public accounting firm, performed the agreed-upon procedures
   engagement in accordance with attestation standards established by the American Institute of
   Certified Public Accountants and Government Auditing Standards issued by the Comptroller
   General of the United States. The adequacy and sufficiency of the procedures are solely the
   responsibility of the Financial Management Service, GAO, and OMB. Accordingly, CG made
   no representation regarding the sufficiency of these procedures.

   CG performed the agreed-upon procedures and reported on findings and differences related
   to intragovemmental activities between the closing package, which is submitted to GAO for
   inclusion in the consolidated financial statements, and the FCC’s unaudited financial
   statements and general ledgers. The report was issued December 2, 2005 in accordance
   with Treasury Financial Manual requirements.

II. Performance Audits. Performance audits are systematic examinations that are
    performed with the intent of providing the basis for assessing the performance of a
    government organization, program, activity or function so that corrective action can be
    taken if appropriate.

1. Inspector General Statement on the Federal Communications Commission’s Fiscal
   Year 2005 Major Management Challenges (Report No. 05-AUD-04-08 issued November
   10, 2005)

   In November 2000, the President signed the Reports Consolidation Act of 2000 which
   requires Inspectors General to provide a summary and assessment of the most serious
   management and performance challenges facing Federal agencies and the agencies’
   progress in addressing them. For the second year of reporting to include in FCC’s fiscal year
   2005 Performance and Accountability Report, the OIG identified the following management
   issues facing the FCC during fiscal year 2005:

   •   Reporting Component Investigations and Fraud
   •   Financial Reporting
   •   Financial Reporting Components
   •   Information Technology and Information Systems Security
   •   Revenue Gap
   •   Physical Security and Protection of Personnel

   On November 15, 2005, the Managing Director of FCC provided responses to the challenges
   that were identified and stated that he intends to develop a plan to address these issues
   during fiscal year 2006.



                                           10
                                              Audits
   1. Report of Defense Contract Audit Agency (DCAA) on Audit of FY 2003 Incurred Costs
      of the Titan Corporation, Civil Government Services Group (Audit Report No. 6341-
      2003V10100023 issued on October 11, 2005)

       The primary objective of an incurred cost audit is to examine a contractor’s cost
       representations and express an opinion as to whether these representations are reasonable;
       are properly incurred under the contract; and not prohibited by the contract, statute or
       regulation, or by decision of, or agreement with, the contracting officer. Incurred cost audits
       are performed at the request of the Commission’s Contracts and Purchasing Center.

       DCAA reviewed the final indirect cost proposal submitted by the Titan Corporation to establish
       indirect costs rates for FY 2003 incurred costs claimed under FCC contract nos.
       CON01000008 and CON01000009. These rates apply primarily to flexibly-priced contracts.
       DCAA’s audit disclosed no material findings that would directly affect these contracts. We
       concluded that Titan’s indirect rates for January 1, 2003 through December 31, 2003 could
       properly be used for contract and/or task order closeouts.

   2. Audit of the National Academy of Public Administration Final Cost Claim Under FCC
      Contract No. CON05000001 (Audit Report No. 06-AUD-03-02 issued on January 3, 2006)

       The OIG audited the National Public Academy of Public Administration’s (NAPA) final costs
       that were claimed under FCC Contract No. CON05000001 to determine whether NAPA’s
       claimed direct labor, subcontract, other direct and indirect cost and rate documentation
       supporting its final invoice under the contract was justified. We concluded that NAPA had
       adequately supported all costs and rates and recommended that the FCC accept the final
       invoice as submitted.

   III. Program Audits. Program audits assess whether the objectives of both new and
        continuing programs are appropriate in comparison to established criteria, such as
        Office of Management and Budget directives or common business practices. In
        addition, program audits seek to determine whether each program is in compliance
        with laws and regulations that are applicable to that program. This type of audit also
        seeks to determine whether management's reports of measures of program
        effectiveness are valid and reliable.

   1. Audit of the Federal Communication Commission’s Contracts and Purchasing Center
      (Report No. 04-AUD-10-20 issued on November 4, 2005).

       The OIG conducted this audit to provide the Commission with an independent and
       comprehensive evaluation and assessment of the Commission’s contracting and purchasing
       activities. The objectives of the audit included determining whether:

    • The Commission solicited, awarded, and administered contracts in accordance with Federal and
       Commission requirements.
    • The Commission's expenditures were reasonable and necessary.
    • The Commission's purchases were pursuant to contract when warranted.
    • The Commission funded, let and administered contracts in an economic and efficient manner.
The Commission performed, or has the expertise to perform, appropriate oversight of contractor




                                                11
                                          Audits
performance.

Other audit objectives included:

• The identification of opportunities that could improve management control in the Contract & Purchasing
  Center.
• Documenting key processes and identifying opportunities to improve efficiency or effectiveness.
• An examination of the Commission’s Procurement Desktop software to identify areas of potential
  weakness and recommend areas for improvement.

    This audit determined that the Commission is generally compliant with its procurement policies
     and procedures and Federal Acquisition Regulations (FAR). Twenty-one (21) findings in the
     areas of procurement and contracting activities, and general, application and security controls
     for the Procurement Desktop and UNIX systems were identified where improvements could be
     made.

    OMD concurred in eighteen (18) findings, partially concurred with three (3) findings, and
    outlined planned corrective actions to address those findings.

2. Audit of the Federal Communication Commission’s Payroll Management and Financial
   Controls (Report No. 04-AUD-10-22 issued on December 5, 2005)

    The OIG conducted this audit to review the payroll process at the FCC. The primary objective of
    this audit was to determine whether compliance with applicable laws and regulations was being
    achieved. Additional audit objectives included:

•   Documenting our understanding of all phases of the payroll process and key internal controls
    over payroll and related areas;
•   Testing key controls in operation and insuring that transactions recorded in the payroll system
    are supported by appropriate documents and that costs are charged to the right program;
•   Determining whether clear, and distinct, separation of duties are in place throughout all phases
    of the payroll process;
•   Performing tests of accuracy and compliance on leave and earnings data;
•   Assessing the risk of errors or other problems in recording, reviewing and reconciling payroll
    transactions; and
•   Performing other testing as necessary.

    We concluded that, overall, the FCC is not in substantial compliance with established policies
    and procedures, and lacks effective monitoring activities that would insure compliance with
    applicable laws and regulations. We made several positive observations concerning the
    personnel and payroll processes, and also identified several situations where there was a lack of
    compliance with FCC policies and procedures. These were compiled into fourteen (14)
    reportable conditions. We also made recommendations to the Commission's management for
    improvement for each condition.

    OMD concurred in twelve findings and partially agreed with two (2) of the findings. The FCC's
    management proposed actions to address our findings that should be sufficient to address those
    findings.



                                             12
                                           Audits
3. FY 2004 Network Infrastructure Controls (Report No. 04-AUD-12-23 issued on December 2, 2005)

    The objective of this audit was to examine the Information Technology (IT) environment
    supporting the FCC’s network infrastructure to ensure that the systems are adequately secured in
    a manner consistent with Federal regulations governing the management of critical information
    systems. The OIG reviewed major categories of general controls associated with the network
    security such as access controls, service continuity and security program planning and
    management. The scope of the audit included the network infrastructure managed by the Office
    of Managing Director’s Information Technology Center (ITC) and the Auctions and Industry
    Analysis Division of the Wireless Telecommunications Bureau.

    We identified several positive security controls during the course of our audit, including a
    comprehensive set of configuration controls that were in place as well as good physical security
    of network infrastructure controls. Our audit also disclosed twelve (12) findings pertaining to
    certain system vulnerabilities.

    The FCC's management concurred in the results of our audit and implemented appropriate
    corrective actions prior to the completion of this audit.

4. Audit of the Commission’s Continuity of Operations Program (COOP) (Report No. 45-AUD-09-
   17, dated December 6, 2005)

    In the post 9-11 environment, contingency planning and business continuity became critical.
    In 2002, the FCC began to develop continuity of operations ("COOP") plans. The objectives
    of this audit were: (i) to assess the progress of FCC’s contingency planning; (ii) to assess its
    continuity of operations program; and (iii) to determine if the FCC has a sustainable program
    that will achieve the desired result.

    The OIG identified several positive security controls during the course of our audit, including a
    successful test of the COOP conducted by the FCC and a backup site for the agency’s High
    Frequency Directional Finder Center. Our audit, however, disclosed five (5) findings
    pertaining to weaknesses in the FCC’s implementation of its COOP.

    The FCC’s management concurred in the results of our audit and implemented appropriate
    corrective actions prior to the completion of the audit for two (2) findings and outlined
    corrective actions for the balance of findings.

IV. Work-in-process reports on the following audits that were not completed as of the date
    of publication of this report.

    In the IG's previous Semiannual Report (for the six month period ending September 30, 2005)
    the IG reported that fourteen (14) audits and one survey were in progress as well as on-going
    contracting services and numerous E-rate audits. Of the fifteen (15) open audits, six (6) have
    been completed. The following audits and surveys are in process:

1. Audit of the Federal Communications Commission's Fiscal Year 2006 Financial
   Statements




                                              13
                                            Audits
This audit, required by the Accountability for Tax Dollars Act of 2002, is important both internally
to the Commission’s operations and necessary in support of the audit of the Financial Report of
the United States. Additionally, the Department of the Treasury has established a "Closing
Package" process requiring each agency IG to issue an opinion that the process used for
submitting financial data into GFRS (the Government Financial Reporting System) has been
reclassified correctly from the audited financial statements.

The objective of this audit is to provide an opinion on the FCC's FY 2006 consolidated financial
statements. With the assistance of an independent public accounting firm, the OIG audits the
compiled annual financial statements in accordance with established Federal guidance. Follow-
up procedures will address any material weaknesses or reportable conditions from the FY 2005
audit that have not been satisfactorily resolved. We anticipate issuing an audit report by
November 15, 2006, to meet the accelerated reporting time frames and issuance of an opinion on
the closing package by November 17, 2006, as required by the U.S. Department of the Treasury.

2. Audit of Loan Portfolio and Related Activity

    The Commission has a loan portfolio that is comprised of approximately 2,000 debtor
    installment payment plans. In recent years, the portfolio received increased scrutiny due to its
    materiality with respect to the FCC’s financial statements. To mitigate concerns regarding
    past contractor operations and to prepare auditable balances, the Commission contracted
    with a public accounting firm to review and recalculate loan balances since the inception of
    the loan program. Although these actions resulted in significant changes to internal controls,
    loan balances, and source documentation, several recent changes have also affected the
    internal controls that are associated with the FCC’s loan activity. In FY 2000, FCC contracted
    with a loan service provider to manage and maintain its loan portfolio. In addition, FCC
    developed and partially implemented the Revenue Accounting and Management Information
    System (RAMIS), which was originally represented to OIG as becoming the system of record
    for the FCC’s loan activity in the future. During FY 2000, the FCC's Financial Operations
    Office was reorganized and responsibilities were reassigned that affected the maintenance of
    the loan portfolio.

    The primary objective of this audit is to assess the transition of the portfolio from the FCC to a
    loan service provider environment. This audit has been delayed by the FCC’s inability to
    complete the transition of its loan activities to Colson Services, a process that was only
    recently completed. We anticipate that this audit can now be completed during FY 2006.

3. FY 2005 FISMA Evaluation

    The Federal Information System Management Act (FISMA) focuses on the programmatic
    management, implementation, and evaluation of agency security systems. FISMA replaced
    the Government Information Security Reform Act (GISRA) which expired in November 2002.
    A key provision of FISMA requires that each Inspector General perform an independent
    evaluation of his or her agency's information security programs on an annual basis.

    The objective of this independent evaluation is to examine the Commission’s security program
    and practices with respect to major information system applications. To accomplish this
    objective, we will test the effectiveness of security controls for an appropriate subset of the
    Commission’s systems. In addition, we will use the FISMA assessment tool to evaluate the
    effectiveness of the Commission’s information security program as well as to assess the risk



                                              14
                                           Audits
   for each component of the program. The information report requirement by the Office of
   Management and Budget (OMB) was issued August 31, 2005 and our draft report was issued
   to the FCC's management for comment on December 21, 2005. We anticipate that a final
   audit report will be issued during the third quarter of FY 2006.

4. Audits of the Physical Security of Commission Facilities

   In the post 9-11 environment, physical security to protect FCC employees, contractors,
   visitors, and assets is essential. The OIG has previously performed a number of audits on
   physical security. The objectives of this audit are to determine the progress this agency has
   made in correcting prior audit findings as well as to evaluate the FCC’s physical security
   program. The focus of this review will be directed to the Commission’s headquarters facilities
   at Portals I and II in Washington, DC. This audit will provide the Chairman with an
   independent assessment of the current posture of the FCC’s physical security program at its
   headquarters facilities. Specific recommendations, if warranted, will be prepared to address
   any deficiencies identified during the audit fieldwork. An entrance conference on this audit on
   held on September 20, 2005.

   In addition, we initiated an audit of the physical security of Commission’s mailroom facilities.
   We anticipate issuing reports on these audits during the fourth quarter of FY 2006.

5. Integrated Spectrum Auctions System Review

   The Integrated Spectrum Auctions System (ISAS) is expected by the Commission's
   management to replace the FCC's Automated Auctions System (AAS). Automation of the
   Commission's spectrum auctions holds the prospect of providing efficiency gains to the
   Commission and to the public. The objectives of this review are: (1) to monitor and assess
   ISAS compliance with the Commission’s systems development life cycle (SDLC) policy; (2) to
   determine whether effective security controls have been built into ISAS; (3) to measure
   compliance with Federal capital investment regulations; (4) to ascertain whether the ISAS
   project has experienced any significant cost overruns, unanticipated expenditures, or project
   delays.

   We completed an audit of the ISAS software development methodology in FY 2005 and
   issued our audit report on May 27, 2005. We are currently conducting Phase 2 of this audit,
   during which we will perform a further review of the ISAS investment and assess alternatives
   to the instantiation of this system. We anticipate issuing an audit report during the second
   quarter of FY 2006.

6. Audit of Regulatory Fee Collections

   Collection of fees is a critical financial function of the FCC. In recent years, the Commission
   has collected more than $200,000,000 in fees annually. Because of the criticality of the fee
   collection function, and the significant financial investment in the systems to automate this
   function, the IG determined that audit work was warranted. This audit will examine the
   regulatory fee collection process to determine if the Commission can be reasonably assured
   that all applicable regulatory fees are being collected. The OIG will review both manual and
   automated controls over the regulatory fee collection process. We will also review a statistical
   sample of regulated entities to determine if the Commission has been collecting all fees due.
   Audit planning has been initiated for this activity.



                                             15
                                          Audits
7. Commission Registration System (CORES) Application Audit

   The Commission Registration System (CORES) system was developed so its users could
   more easily file applications, reports, and other documents. CORES allows licensing and
   cable operation information to be more accessible to both FCC staff and to the public. The
   objective of this survey is to determine the extent and effectiveness of security controls in the
   CORES application. We will evaluate the efficacy of security controls in CORES, including
   access controls, separation of duties, penetration testing, application audit trails, and
   application change controls. Audit planning has been initiated for this audit and we anticipate
   issuing a report during the fourth quarter of FY 2006.

8. Continuity of Operations (COOP) Audits for Related Entities

   In the post 9-11 environment, contingency planning and operations continuity are essential.
   In 2002, the FCC began to develop operations continuity plans. The objective of these audits
   is to determine the progress that has been made with respect to the contingency planning
   programs and the operations continuity programs for FCC related entities to determine if they
   have realistic, effective, and reliable programs. These audits will provide the Chairman with
   an independent assessment of the current posture of the operations continuity programs of
   all entities that are included as part of the FCC’s financial statements. We issued a draft audit
   report on the COOP for the Universal Service Administrative Company (USAC) on November
   9, 2005. We anticipate issuing a final report on this audit during the third quarter of FY 2006.

9. Telecommunications Relay Services Fund (TRS) Provider Analysis & Risk Assessment

   The TRS program became effective on July 26, 1993 as an interstate cost recovery plan that
   required common carriers to provide telephone voice transmission services through out the
   areas in which they offer services. Approximately $70 millions are contributed annually to a
   dozen providers by 2,800 common carriers which are paid by telephone customers through
   their monthly telephone bills. This program has not been subjected to a comprehensive
   program of audit and oversight by this office. Additionally, the Commission has not calculated
   the estimated percentage of erroneous payments for the TRS program.

   This is the first in an anticipated series of projects that will culminate in a defined audit
   process for providing the Commission and the IG with an independent and comprehensive
   examination and assessment of the Federal Communication Commission’s TRS program's
   administration and TRS provider compliance with 47 CFR §§ 64.601 - 64.605 and the conduct
   of such audits. Objectives include analyzing the FCC TRS oversight requirements, assessing
   the Commission’s program management functions, and evaluating the operations of the TRS
   administrator. We anticipate issuing our report on the initial phase of this project during the
   fourth quarter of FY 2006.




                                             16
                                             Audits


   11. Audits of E-rate Beneficiaries

As discussed in the report section Independent Oversight of the Universal Service Fund (USF), we have a
number of audits of E-rate beneficiaries in process. The following table lists the audits and their status.

Auditee                                    Location                   Auditor          Status
Bureau of Indian Affairs (BIA)             Washington, DC             DOI OIG          In process
VI Department of Education                 St. Thomas, VI             DOI OIG          In process
Brevard County School District             Viera, FL                  FCC OIG          Draft report
                                                                      Education
New York City Department of Education      New York, NY               OIG              In process
Denver Public Schools                      Denver, CO                 KPMG LLP         Draft report
Harlandale Independent School District     San Antonio, TX            KPMG LLP         Draft report
Providence Public Schools                  Providence, RI             KPMG LLP         Draft report
Sunnyside Unified School District 12       Tucson, AZ                 KPMG LLP         Draft report
Cincinnati City School District            Cincinnati, OH             KPMG LLP         Draft report
Rhode Island Department of
Elementary and Secondary Education         Providence, RI             KPMG LLP         Draft report
Rio Grande City Consolidated ISD           Rio Grande City, TX        KPMG LLP         In process
Advanced Education Services                Colton, CA                 KPMG LLP         In process
Long Beach Unified School District         Long Beach, CA             KPMG LLP         Draft report
North East Independent School District     San Antonio, TX            KPMG LLP         Draft report
Delano Joint Union High School District    Delano, CA                 KPMG LLP         In process
Grant Joint Union High School District     Sacramento, CA             KPMG LLP         In process
San Diego County Office of Education       San Diego, CA              KPMG LLP         In process
Baltimore City Public School District      Baltimore, MD              KPMG LLP         Draft report
Fairfax County Public Schools              Fairfax, VA                KPMG LLP         Draft report
Long Branch School District                Long Branch, NJ            KPMG LLP         Draft report
Municipal Telephone Exchange               Baltimore, MD              KPMG LLP         In process
Alabama Super Computer Authority           Montgomery, AL             KPMG LLP         In process
Charleston County School District          Charleston, SC             KPMG LLP         In process
Clark County School District               Las Vegas, NV              KPMG LLP         Draft report
Dallas Independent School District         Dallas, TX                 KPMG LLP         Draft report
Department of Information Systems
State of Arkansas                          Little Rock, AR            KPMG LLP         In process
Dorchester County School District #4       Saint George, SC           KPMG LLP         Draft report
El Monte City Elementary School
District                                   El Monte, CA               KPMG LLP         Draft report
Fontana Unified School District            Fontana, CA                KPMG LLP         In process
Gallup-McKinley County School District     Gallup, NM                 KPMG LLP         Draft report




                                               17
                                            Audits
Auditee                                   Location               Auditor        Status
San Felipe – Del Rio City ISD             Del Rio, TX          KPMG LLP      Draft report
Stockton City Unified School District     Stockton, CA         KPMG LLP      Draft report
Buchanan County School District           Grundy, VA           KPMG LLP      Draft report
Brownsville Independent School District   Brownsville, TX      KPMG LLP      In process
Aldine Independent School District        Houston, TX          KPMG LLP      Draft report
Edinburg Independent School District      Edinburg, TX         KPMG LLP      In process
Houston Independent School District       Houston, TX          KPMG LLP      Draft report
Iowa Department of Education              Des Moines, IA       KPMG LLP      Draft report
South Carolina Division of the State
Chief Information Officer                 Columbia, SC         KPMG LLP      In process
Pharr – San Juan – Alamo Independent
School District                           San Juan, TX         KPMG LLP      In process
Pomona Unified School District            Pomona, CA           KPMG LLP      Draft report
Florida Information Resource Network      Tallahassee, FL      KPMG LLP      In process
Texas Youth Commission                    Austin, TX           KPMG LLP      Draft report
Berkeley County School District           Moncks Corner, SC    KPMG LLP      Draft report
Eastern Nebraska Distance Learning
Consortium                                Fremont, NE          KPMG LLP      Draft report
Dougherty County School District          Albany, GA           KPMG LLP      Draft report
Montgomery County School District         Montgomery, AL       KPMG LLP      In process
Orleans Parish School District            New Orleans, LA      KPMG LLP      In process
Kayenta Unified School District 27        Kayenta, AZ          KPMG LLP      In process
Weslaco Independent School District       Weslaco, TX          KPMG LLP      Draft report
LaJoya Independent School District        LaJoya, TX           KPMG LLP      Draft report
Pasadena Independent School District      Pasadena, TX         KPMG LLP      In process
Premont Independent School District       Premont, TX          KPMG LLP      In process
Navajo Nation Library Consortium          Window Rock, AZ      KPMG LLP      Draft report
Wilson School District 7                  Phoenix, AZ          KPMG LLP      Draft report
Los Angeles Unified School District       Los Angeles, CA      KPMG LLP      In process
Prince Georges County Schools             Upper Marlboro, MD   FCCOIG/USAC   In process
Miami-Dade County Public Schools          Miami, FL            KPMG LLP      In process
American Samoa SEA                        Pago Pago, AS        KPMG LLP      Draft report
Guam Department of Education              Hagatna, GU          KPMG LLP      In process
Birmingham City School District           Birmingham, AL       KPMG LLP      In process
Georgia State Department of Education     Atlanta, GA          KPMG LLP      In process
Orange County School District             Orlando, FL          KPMG LLP      In process
Jackson Public School District            Jackson, MS          KPMG LLP      In process
Richland County School District           Columbia, SC         KPMG LLP      Draft report
Bassett Unified School District           La Puente, CA        KPMG LLP      Draft report
Leake & Watts Services, Inc.              Yonkers, NY          KPMG LLP      In process
Corporation for Network Education
Initiative in California                  Cypress, CA          KPMG LLP      In process
Desert Sands Unified School District      La Quinta, CA        KPMG LLP      Draft report
Garvey Elementary School District         Rosemead, CA         KPMG LLP      In process



                                              18
                                             Audits
Auditee                                    Location                   Auditor          Status
Nw-Links                                   Moorhead, MN               KPMG LLP         In process
Robstown Independent School District       Robstown, TX               KPMG LLP         In process
San Bernardino City Unified School
District                                   San Bernardino, CA         KPMG LLP         In process
School Board of Broward County,
Florida                                    Sunrise, FL                KPMG LLP         Draft report
South San Antonio Independent School
District                                   San Antonio, TX            KPMG LLP         In process
Trenton City School District               Trenton, NJ                KPMG LLP         In process
Boston Public Library/MBLN                 Boston, MA                 KPMG LLP         In process
Boston School District                     Boston, MA                 KPMG LLP         In process
Bridgeport School District                 Bridgeport, CT             KPMG LLP         In process
Brooklyn Public Library                    Brooklyn, NY               KPMG LLP         In process
Buffalo City School District               Buffalo, NY                KPMG LLP         In process
Palm Beach County School District          West Palm Beach, FL        KPMG LLP         In process
City of Boston, Department of
Neighborhood Development                   Boston, MA                 KPMG LLP         In process
Saginaw Public School District             Saginaw, MI                KPMG LLP         In process
School City of East Chicago                East Chicago, IN           KPMG LLP         Draft report
Central Islip Union Free School District   Central Islip, NY          KPMG LLP         In process
Fresno Unified School District             Fresno, CA                 KPMG LLP         In process
Norwalk La Mirada Unified School
District                                   Norwalk, CA                KPMG LLP         In process
Paramount Unified School District          Apple Valley, CA           KPMG LLP         In process
Columbus Public Schools                    Columbus, OH               KPMG LLP         In process
Gadsden Independent School District        Sunland, NM                KPMG LLP         In process
Laredo Independent School District         Laredo, TX                 KPMG LLP         In process
Milwaukee Public Schools                   Milwaukee, WI              KPMG LLP         In process
Newark School District                     Newark, NJ                 KPMG LLP         In process
Saint Louis City School District           Saint Louis, MO            KPMG LLP         In process
Saint Paul Public School District          Saint Paul, MN             KPMG LLP         In process
TEACH Wisconsin                            Madison, WI                KPMG LLP         In process
Tucumcari Public School District           Tucumcari, NM              KPMG LLP         In process
United Independent School District         Laredo, TX                 KPMG LLP         In process
Yonkers Public School District             Yonkers, NY                KPMG LLP         In process
Camden City Public School                  Camden, NJ                 KPMG LLP         In process
Detroit Public School District             Detroit, MI                KPMG LLP         In process
Illinois State Board of Education          Springfield, IL            KPMG LLP         In process
Kansas City School District                Kansas City, MO            KPMG LLP         In process

  12. Audit Support for USF Investigations

      In addition to the audit component of our independent oversight program, we are providing
      audit support to investigations of E-rate recipients and service providers. To implement the
      investigative component of our plan, we established a working relationship with the Antitrust



                                               19
Division of the Department of Justice (DOJ). The Antitrust Division has established a task
force to conduct USF investigations comprised of attorneys in each of the Antitrust Division’s
seven field offices and the National Criminal Office. As of the end of the reporting period, we
are supporting twenty-four (24) investigations and monitoring an additional eleven (11)
investigations.




                                         20
                       Management
Specialized Training and Activities

In our continuing effort to expand the expertise of our audit staff, we have attended
training at the Inspector General Criminal Investigative Academy, other federal OIG
training events, master’s level classes at colleges and universities and other technical
seminars.

Report Availability

This OIG Semiannual Report, as well as other types of reports, can be obtained
through the Internet from the OIG web page, which is located on the FCC's website at
http://www.fcc.gov/oig. OIG reports that containing sensitive or proprietary information
that are protected from disclosure by law will be restricted in accordance with that
legislation.

Internships

The OIG welcomes college interns during the fall, spring and summer. Most of these
students take their internships for credit. Recent interns have come from schools
across the country, including Hamilton College, the University of California at Berkeley,
the University of California at Davis, American University, Georgetown University,
DePauw University, the University of North Carolina, North Carolina State University,
Xavier University, and James Madison University.

These internships have proved to be rewarding experiences to all participants.
Students leave with a good understanding of how a government agency operates, and
they have the opportunity to encounter the challenges involved in governance while
enjoying the exhilaration that can come from public service.. In turn, the office has
benefited from the students’ excellent work performance that, in part, has reflected
their youth, exuberance, and special skills.




                                         21
                         Investigations
OVERVIEW

Investigative matters pursued by this office are usually initiated as a result of allegations
received through the OIG hotline or from FCC managers and employees who contact the OIG
directly. Investigations may also be predicated upon audit or inspection findings of fraud,
waste, abuse, corruption, or mismanagement by FCC employees, contractors, and/or
subcontractors or through referrals from other governmental agencies. Upon receiving an
allegation of an administrative or criminal violation, the OIG usually conducts a preliminary
inquiry to determine if an investigation is warranted. Investigations may involve possible
violations of regulations regarding employee responsibilities and conduct, federal criminal law,
and other regulations and statutes pertaining to the activities of the Commission. Investigative
findings may lead to criminal or civil prosecution, or administrative action, or all of the
foregoing.

The OIG also receives complaints from the general public, both private citizens and
commercial enterprises, about the manner in which the FCC executes its programs and
oversight responsibilities. All complaints are examined to determine whether there is any basis
for OIG audit or investigative action. If nothing is alleged that is within the jurisdiction of the
OIG, the complaint is usually referred to the appropriate FCC bureau or office for response
directly to the complainant. The OIG continues to serve as a facilitator with respect to
responses to complaints that are outside the jurisdiction of this office. Finally, matters may be
referred to this office for investigative action from other governmental entities, such as the
General Accounting Office, the Office of Special Counsel or congressional offices.

ACTIVITY DURING THIS PERIOD

Forty-eight (48) cases were pending from the prior period. Thirty-six (36) of those cases
involve the Commission’s Universal Service Fund (USF) program and have been referred to
the Federal Bureau of investigation (FBI) and/or the Department of Justice. An additional two
(2) non-USF and two (2) USF related complaints were received during the current reporting
period. Over the last six months, four (4) cases, three (3) USF and one (1) non-USF related
have been closed. A total of forty-eight (48) cases are still pending, of which thirty-five (35)
relate to the USF program. The OIG continues to monitor, coordinate and/or support activities
regarding those 35 investigations. The investigations pertaining to the pending thirteen (13)
non-USF cases are ongoing.

STATISTICS

Cases pending as of March 31, 2005         ………………….…………. 48

New cases.………………………………………………………………..                                     4

Cases closed……………………………………………………………… 4

Cases pending as of September 30, 2005…………………………….. 48




                                          22
                         Investigations
SIGNIFICANT INVESTIGATIVE CASE SUMMARIES

•   The OIG initiated an inquiry into allegations of improper conduct by a Commission
    employee with respect to the possession of private information relating to a group of
    Commission employees. Specifically, it was alleged that the FCC employee had violated
    the Privacy Act of 1974 U.S.C.A. §552a, et. seq. Inquiries in relation to this issue are
    currently pending.

•   During this period, the OIG initiated an inquiry into allegations of procurement fraud
    involving by an FCC employee. . Specifically, it was alleged that the employee directed
    contracts and purchases to related parties. The OIG’s inquiry resulted in a fraud referral
    to the Federal Bureau of Investigation. We continue to monitor this referral.

The OIG continues to coordinate and provide assistance to law enforcement entities with
respect to investigations pertaining to infractions within the Universal Service Fund program of
the Commission.




                                         23
                                 Legislation
OVERVIEW

  Pursuant to section 4(a)(2) of the Inspector General Act of 1978 (IG Act), 5 U.S.C.A. App. 3 as
  amended, our office monitors and reviews existing and proposed legislative and regulatory
  items for their impact on the Office of the Inspector General and the Federal Communications
  Commission programs and operations. Specifically, we perform this activity to evaluate their
  potential for encouraging economy and efficiency and preventing fraud, waste, and
  mismanagement.

  The office continued to monitor legislative activities affecting the activities of the OIG and the
  FCC. During this period, this office specifically monitored legislation and legislatively related
  proposals which, directly or indirectly, affect the ability of Designated Federal Entity IGs to
  function independently and objectively.




                                            24
                             OIG Hotline
During this reporting period, the OIG Hotline technician received numerous hotline calls to the
published hotline numbers of (202) 418-0473 and 1-888-863-2244 (toll free). The OIG Hotline
continues to be a vehicle by which Commission employees and parties external to the FCC
can contact the OIG to speak with a trained Hotline technician. Callers who have general
questions or concerns not specifically related to the missions or functions of the OIG office are
referred to the FCC Consumer Center at 1-888-225-5322. In addition, the OIG also refers calls
that do not fall within its jurisdiction to other entities, such as other FCC offices, federal
agencies and local or state governments. Examples of calls referred to the Consumer Center
or other FCC offices include complaints pertaining to customers’ phone service and local cable
providers, long-distance carrier slamming, interference, or similar matters within the program
responsibility of other FCC bureaus and offices. During the reporting period, we received
eighty-five (85) hotline calls. The majority of these were forwarded to the Consumer Center
(49 calls) and the balance of calls were referred to other federal agencies, primarily the Federal
Trade Commission (35 calls).



                           Hotline Calls Record
                      October 1, 2005 - MArch 31, 2006




                                                                     FCC Consumer
                                                                     Hotline



                                                                     Other Federal
                                                                     Agencies




                                         25
                        OIG Hotline

Report Fraud, Waste or Abuse to:
Office of the Inspector General
Federal Communications Commission



CALL
Hotline: (202) 418-0473
or
(888) 863-2244

www.fcc.gov/oig


You are always welcome to write or visit.
Federal Communications Commission
Portals II Building
445 12th St., S.W. –Room #2-C762




                                26
               Specific Reporting Requirements
                 of the Inspector General Act

The following summarizes the Office of Inspector General response to the 12 specific reporting
requirements set forth in Section 5(a) of the Inspector General Act of 1978, as amended.

1. A description of significant problems, abuses, and deficiencies relating to the
administration of programs and operations of such establishment disclosed by such activities
during the reporting period.

Please refer to the Section of this report entitled “Universal Service Fund” on pages 3 through
6.

2. A description of the recommendations for corrective action made by the Office during the
reporting period with respect to significant problems, abused, or deficiencies identified
pursuant to paragraph (1).

Please refer to the section of this report entitled “Universal Service Fund” on pages 3 through
6.

3. An identification of each significant recommendation described in previous semiannual
reports on which corrective action has not yet been completed.

No significant recommendations remain outstanding.

4. A summary of matters referred to authorities, and the prosecutions and convictions which
have resulted.

Please refer to the section of this report entitled “Universal Service Fund” on pages 3 through
6. No non-USF cases have been referred to the Department of Justice during this reporting
period.

5. A summary of each report made to the head of the establishment under section (6)(b)(2)
during the reporting period.

No report was made to the Chairman of the FCC under section (6)(b)(2) during this reporting
period.

6. A listing, subdivided according to subject matter, of each audit report issued by the office
during the reporting period, and for each audit report, where applicable, the total dollar value
of questioned costs (including a separate category for the dollar value of unsupported costs)
and the dollar value of recommendations that funds be put to better use.

Each audit report issued during the reporting period is listed according to subject matter and
described in parts II and III of this report.

7. A summary of each particularly significant report.

Each significant audit and investigative report issued during the reporting period is
summarized within the body of this report.




                                             27
               Specific Reporting Requirements
                 of the Inspector General Act

8. Statistical tables showing the total number of audit reports with questioned costs and the
total dollar value of questioned costs.

The required statistical table can be found at Table I to this report.

9. Statistical tables showing the total number of audit reports with recommendations that
funds be put to better use and the total dollar value of such recommendations.

The required statistical table can be found at Table II to this report.

10.A summary of each audit report issued before the commencement of the reporting period
for which no management decision has been made by the end of the reporting period
(including the date and title of each such report), an explanation of the reasons why such a
management decision has not been made, and a statement concerning the desired timetable
for achieving a management decision on each such report.

Three reports were issued before the commencement of this reporting period for which no
management decision has been made. These reports are for audits of E-rate beneficiaries.
Management has not informed us as to the status of a management decision for the E-rate
audits.


Report Date                      Audit Report Title                        Questioned Costs
August 18, 2005         Report on Audit of the E-rate program at               $136,849
                        St. Joseph’s High School, St. Croix, VI
August 18, 2005         Report on Audit of the E-rate program at                  $120,051
                        St. Mary’s Catholic School, St. Croix, VI
August 18, 2005         Report on Audit of the E-rate program at                  $137,571
                        St. Patrick Catholic School, St. Croix, VI

11. A description and explanation of the reasons for any significant revised management
decision made during the reporting period.

No management decisions fall within this category.

12. Information concerning any significant management decision with which the Inspector
General is in disagreement.

No management decisions fall within this category.

13. Information described under section 05(b) of the Federal Financial Management
Improvement Act of 1996.

No reports with this information have been issued during this reporting period.




                                              28
                OIG Reports With Questioned Costs
Table I.
Inspector General      Number of
Reports With            Reports         Questioned Costs   Unsupported Costs
Questioned Costs

A. For which no
management decision
has been made by the      3                $394,471                _
commencement of the
reporting period.

B. Which were issued
during the reporting      _                    _                   _
period.

C. For which a
management decision
                           _                   _                   _
was made during the
reporting period.

(i) Dollar value of
                           _                   _                   _
disallowed costs

(ii) Dollar value of
                           _                   _                   _
costs not disallowed

D. For which no
management decision
has been made by the      3                $ 394,471               _
end of the reporting
period.

Reports for which no
management decision
was made within six
months of issuance.

                          3                $394,471                _




                                   29
                  OIG Reports With Recommendations That Funds
                              Be Put To Better Use

Table II.
Inspector General Reports
                                 Number of Reports        Dollar Value
With Recommendations That
Funds Be Put To Better Use

A. For which no management
decision has been made by
                                           _                    _
the commencement of the
reporting period.

B. Which were issued during
                                           _                    _
the reporting period.

C. For which a management
decision was made during the               _                    _
reporting period.

(i) Dollar value of disallowed
                                           _                    _
costs

(ii) Dollar value of costs not
                                           _                    _
disallowed

D. For which no management
decision has been made by
                                           _                    _
the end of the reporting
period.

Reports for which no
management decision was
made within six months of
issuance.


                                           _                    _




                                      30
